Audit Report




OIG-11-105
SAFETY AND SOUNDNESS: Material Loss Review of First
National Bank of Anthony
September 20, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Causes of FNB Anthony’s Failure ................................................................            2
    Aggressive Growth With High-Risk CRE Concentration ..............................                         2
    Ineffective Credit Risk Management Processes…………………………………..                                               4

  OCC’s Supervision of FNB Anthony.……………………………………………………                                                       5
    OCC’s Supervision of FNB Anthony Was Appropriate…………………………..                                              5
    OCC’s Use of PCA and Enforcement Actions ...........................................                      7

  Conclusion……………………………………………………………………………………                                                                  9

Appendices

  Appendix    1:     Objectives, Scope, and Methodology……………………………….                                        10
  Appendix    2:     Background………………………………………………………………                                                     13
  Appendix    3:     Management Response………………………………………………..                                                15
  Appendix    4:     Major Contributors to This Report .........................................            16
  Appendix    5:     Report Distribution ..............................................................     17

Abbreviations

  CRE                    commercial real estate
  FDIC                   Federal Deposit Insurance Corporation
  FNB Anthony            First National Bank of Anthony
  MOU                    memorandum of understanding
  MRA                    matter requiring attention
  OCC                    Office of the Comptroller of the Currency
  OIG                    Office of Inspector General
  PCA                    prompt corrective action
  ROE                    report of examination




                     Material Loss Review of First National Bank of Anthony (OIG-11-105)                  Page i
         This Page Intentionally Left Blank




Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page ii
                                                                                             Audit
OIG
The Department of the Treasury
                                                                                             Report
Office of Inspector General




                       September 20, 2011

                       John G. Walsh
                       Acting Comptroller of the Currency

                       This report presents the results of our material loss review of the
                       failure of First National Bank of Anthony (FNB Anthony), of
                       Anthony, Kansas, and of the Office of the Comptroller of the
                       Currency’s (OCC) supervision of the institution. OCC closed FNB
                       Anthony and appointed the Federal Deposit Insurance Corporation
                       (FDIC) as receiver on June 19, 2009. This review is mandated by
                       section 38(k) of the Federal Deposit Insurance Act because of the
                       magnitude of FNB Anthony’s estimated loss to the Deposit
                       Insurance Fund 1 at the time of its failure. 2 As of June 30, 2011,
                       FDIC estimated a loss of $38.3 million. FDIC also estimated that
                       FNB Anthony’s failure resulted in a loss of $2.1 million to the
                       Transaction Account Guarantee Program.

                       Our objectives were to determine the causes of FNB Anthony’s
                       failure; assess OCC’s supervision of FNB Anthony, including
                       implementation of the prompt corrective action (PCA) provisions of
                       section 38; and make recommendations for preventing such a loss
                       in the future. To accomplish these objectives, we reviewed the
                       supervisory files and interviewed OCC and FDIC officials. We
                       conducted our fieldwork from October 2009 through December
                       2009. Appendix 1 contains a more detailed description of our
                       review objectives, scope, and methodology. Appendix 2 contains


1
  Certain terms that are underlined when first used in this report, are defined in, Safety and Soundness:
Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is available on the
Treasury Office of Inspector General’s (OIG) website at http://www.treasury.gov/about/organizational-
structure/ig/Pages/by-date-2011.aspx.
2
  At the time of FNB Anthony’s failure, section 38(k) defined a loss as material if it exceeded the greater
of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k)
defines a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for
calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met).

                       Material Loss Review of First National Bank of Anthony (OIG-11-105)          Page 1
             background information on FNB Anthony’s history and OCC’s
             assessment fees and examination hours.

             In brief, the primary causes of FNB Anthony‘s failure were an
             aggressive growth strategy with a high-risk concentration in
             commercial real estate (CRE) loans and ineffective credit risk
             management processes. These factors, combined with the rapid
             decline in the real estate market, resulted in the deterioration of the
             bank’s asset quality, a substantial volume of problem loans, and
             significant loan losses. In turn, these loan losses diminished
             earnings and capital and, ultimately, led to FNB Anthony’s failure.

             OCC’s supervision of FNB Anthony did not prevent a material loss
             to the Deposit Insurance Fund. However, we concluded that OCC’s
             supervision of FNB Anthony was appropriate. OCC identified credit
             administration issues in a timely manner, issued enforcement
             actions, and used its authority under PCA.

             We are not making any recommendations to OCC as a result of our
             material loss review of FNB Anthony. We provided a draft of this
             report to OCC for its review. In a written response, which is
             included as appendix 3, OCC stated that it agreed with our
             conclusions as to the causes of FNB Anthony and OCC’s
             supervision over the bank.


Causes of FNB Anthony’s Failure
             Aggressive Growth With High-Risk CRE Concentration

             FNB Anthony had an aggressive growth strategy, which included a
             high-risk concentration in CRE loans, with an emphasis on residential
             construction and development loans. From December 31, 2004 to
             December 31, 2008, total assets increased $62 million, or 61 percent,
             and net loans increased $46 million, or 57 percent.

             OCC guidance to examiners specifies the following levels at which
             an institution’s CRE loans represent a concentration risk requiring
             further analysis:




             Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page 2
                     •             total reported loans for construction, land development, and
                                   other land represent 100 percent or more of the institution’s
                                   total risk-based capital; or
                     •             total CRE loans represent 300 percent or more of the
                                   institution’s total risk-based capital, and the outstanding balance
                                   of the institution’s CRE loan portfolio has increased by
                                   50 percent or more during the prior 36 months. 3

                     As shown in Figure 1, FNB Anthony’s CRE loans as a percentage
                     of total risk-based capital significantly exceeded these supervisory
                     benchmarks beginning in 2004.

                     Figure 1. FNB Anthony’s CRE Loan Exposure as a Percentage of Total Risk-Based
                     Capital

                                                            1800
                                                            1600
                                                            1400
                         Percentage of risk-based capital




                                                            1200
                                                            1000
                                                            800
                                                            600
                                                            400
                                                            200
                                                              0
                                                               2004      2005         2006           2007       2008       1Q09

                                                                      Commercial real estate actual         CRE
                                                                                                            benchmark
                                                                      Residential construction and          Construction and
                                                                      development loans actual              development loans benchmark
                     Source: OIG analysis of FNB Anthony’s Uniform Bank Performance Reports.

                     FNB Anthony continued to increase its CRE concentrations by
                     originating CRE loans at or near the real estate market peak in
                     2006. When the real estate market began to deteriorate in 2007,

3
 OCC Bulletin 2006-46, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (Dec. 6, 2006).

                     Material Loss Review of First National Bank of Anthony (OIG-11-105)                                   Page 3
FNB Anthony’s CRE loan portfolio, especially the loans originated
at or near the peak of the market, suffered significant credit
deterioration. An OCC June 2008 examination of FNB First
Anthony found that this deterioration resulted in losses, which
depleted earnings and capital and caused a severe strain on
liquidity. The bank’s CRE concentrations as a percentage of total
risk-based capital thus further increased as the bank’s capital
began to significantly erode, leading to FNB Anthony’s failure.

Ineffective Credit Risk Management Processes

Although OCC guidance does not specify limits on banks’ CRE
lending, it does describe risk management practices an institution is
expected to have in place to pursue CRE lending in a safe and
sound manner. According to the guidance, institutions should
address the following key elements in establishing a risk
management framework that effectively identifies, monitors, and
controls CRE concentration risk:

•   board and management oversight
•   portfolio management
•   management information systems
•   market analysis
•   credit underwriting standards
•   portfolio stress testing and sensitivity analysis
•   credit risk review function

FNB Anthony did not adequately meet these key elements because
the bank’s board of directors failed to ensure that a competent and
effective executive management team was in place. In turn,
ineffective board and management oversight resulted in substantial
deficiencies in the bank’s credit administration practices. From
2004 through FNB Anthony’s closure, OCC examiners repeatedly
found significant credit administration deficiencies. These
deficiencies included deficient and inconsistent credit
administration and policies; overly liberal underwriting, loan
structures, and repayment terms; excessive collateral, credit, and
documentation exceptions; failure to ensure that concentration risk
management processes kept pace with the CRE concentration; lack
of accountability of loan officers; and insufficient credit analysis,



Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page 4
                      credit information, and stress testing, which was detrimental to
                      effective credit risk management.

OCC’s Supervision of FNB Anthony
                      OCC’s Supervision of FNB Anthony Was Appropriate

                      OCC’s supervision of FNB Anthony did not prevent a material loss
                      to the Deposit Insurance Fund. However, based on our audit work,
                      we concluded that OCC’s supervision of FNB Anthony was
                      appropriate. OCC identified credit administration issues in a timely
                      manner, issued enforcement actions, and used its authority under
                      PCA.

                      The following table summarizes OCC’s examinations of FNB
                      Anthony and related enforcement actions from 2004 to 2009. 4
                      Generally, matters requiring attention (MRAs) represent the most
                      significant items reported in reports of examinations (ROEs)
                      requiring corrective action.




4
 OCC followed its internal requirements with respect to the timeliness of annual examinations of FNB
Anthony and quarterly monitoring of the bank.

                      Material Loss Review of First National Bank of Anthony (OIG-11-105)       Page 5
                       Table 1. Summary of OCC’s FNB Anthony Examinations and Enforcement
                                Actions

                                                              Examination Results
        Date
        started/date   Assets       CAMELS          No. of         Number of
        completed      (millions)   rating          MRAs        recommendations      Enforcement actions
        5/11/2004
        8/20/2004
                             $93      2/222222          2               13           None
        Full-scope
        examination
        12/5/2005
                                                                                     Memorandum of
        2/23/2006
                            $127      2/223222         11               0            Understanding (MOU)
        Full-scope
                                                                                     signed 3/23/2006
        examination
        12/21/2006
        3/1/2007                                                                     MOU remained in
                            $143      2/222322          0               0
        Full-scope                                                                   place until 3/1/2007
        examination
                                                                                     Consent order issued
        6/16/2008
                                                                                     11/20/2008;
        9/16/2008
                            $169      4/445442         16               0            PCA notice of
        Full-scope
                                                                                     undercapitalized status
        examination
                                                                                     issued 2/11/2009
       Sources: OCC ROEs, enforcement action documents, Western District Supervisory Review Committee5
       memorandum, and FNB Anthony’s call reports.


                       From 2004 through 2005, OCC examiners found, among other
                       things, significant credit risk management deficiencies. As Table 1
                       shows, OCC issued numerous MRAs. The Table also shows that
                       OCC required FNB Anthony to enter into a MOU on March 23,
                       2006. That MOU set forth articles addressing loan portfolio
                       management, loan review, and consumer compliance. 6

                       Subsequently, in its 2006 ROE, OCC noted that the overall
                       condition of the bank remained satisfactory and that the board and
                       management had achieved significant improvement in credit
                       administration. OCC also concluded that the board was in
                       compliance with all the articles of the MOU, and, therefore

5
  Established in each OCC region, the purpose of the District Supervisory Review Committee is to
ensure consistent, fair, timely, and appropriate implementation and resolution of enforcement actions.
6
  The MOU required FNB Anthony to (1) develop and implement a written program to improve the
bank’s loan portfolio management; (2) establish an independent and ongoing loan review system; and
(3) implement and adhere to a consumer compliance program to ensure that the bank was operating in
compliance with consumer protection laws, rules, and regulations. These articles in the MOU contained
specific requirements to address the MRAs and deficiencies included in the 2005 ROE.

                       Material Loss Review of First National Bank of Anthony (OIG-11-105)           Page 6
terminated the MOU on March 1, 2007. In addition, OCC
concluded that the prior MRAs had been adequately addressed and
did not include any MRAs or recommendations in its 2006 ROE.
We found that OCC’s examination documentation supported these
findings and conclusions.

During the 2008 examination, OCC examiners found that the bank
had deteriorated. They noted that deficiencies reported in 2004
and 2005 had resurfaced, along with new deficiencies. The 2008
ROE contained 16 MRAs, the majority relating to concentration and
credit risk management practices.

On September 5, 2008, supervision of the bank was transferred to
OCC’s Special Supervision Division. In addition, the OCC District
Supervisory Review Committee recommended and the district
deputy comptroller approved entering into a consent order, a formal
enforcement action, with FNB Anthony on August 27, 2008. OCC
sent a draft consent order to the bank on October 10, 2008. On
October 20, 2008, the bank’s board executed the order. The final
consent order, issued November 20, 2008, consisted of 16 articles
and ordered the board and management to address the deficiencies
cited in the 2008 full scope examination with respect to
management, credit administration, asset quality, capital and
strategic planning, and liquidity.

OCC’s Use of PCA and Enforcement Actions

The purpose of PCA is to resolve problems of insured depository
institutions with the least possible long-term loss to the Deposit
Insurance Fund. PCA requires federal banking agencies to take
certain actions when an institution’s capital drops to certain levels.
PCA also gives regulators flexibility to discipline institutions based
on criteria other than capital levels to help reduce deposit insurance
losses caused by unsafe and unsound practices.

As FNB Anthony’s capital levels deteriorated, OCC imposed PCA
restrictions on the bank and took enforcement action. Specifically,
OCC took the following key actions:

•   On June 27, 2008, OCC notified FNB Anthony’s board that the
    bank was in troubled condition.


Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page 7
                   •   On July 30, 2008, OCC notified the board that FNB Anthony
                       was deemed adequately capitalized based on its June 30, 2008
                       call report.

                   •   On November 20, 2008, as discussed above, OCC issued a
                       consent order as a result of the safety and soundness concerns
                       identified in its March 2008 ROE. The consent order, among
                       other things, required that the board, within 120 days, achieve
                       and thereafter maintain minimum capital levels for its Tier 1
                       capital of at least 11 percent of risk-weighted assets, and
                       8 percent of adjusted total assets. 7

                   •   On February 11, 2009, OCC notified the board that FNB
                       Anthony was deemed undercapitalized based on the
                       December 31, 2008 call report. Concurrently, OCC required the
                       bank to submit an acceptable capital restoration plan (CRP) no
                       later than March 16, 2009.

                   •   On March 16, 2009, instead of submitting a CRP, the board
                       submitted a document it called a disposition plan as the board
                       concluded that it could not raise the capital necessary to
                       rehabilitate FNB Anthony’s condition.

                   •   In a March 19, 2009, letter, OCC notified the board that the
                       disposition plan did not meet the requirements of an acceptable
                       CRP. Also, OCC deemed FNB Anthony critically undercapitalized
                       based on the bank’s balance sheet as of February 28, 2009,
                       and identified losses and a required provision of $3.4 million for
                       loan and lease loss expense that would reduce the bank’s
                       tangible equity capital ratio to approximately 1.91 percent.

                   On June 19, 2009, OCC exercised its authority to close the bank
                   and appointed FDIC as receiver. The action was 92 days after FNB
                   Anthony was first deemed critically undercapitalized.




7
 Adjusted total assets are defined as the average total asset figure used for call report
purposes minus end-of-quarter intangible assets.

                   Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page 8
Conclusion
                     We are not making any new recommendations to OCC as a result
                     of our material loss review of the FNB Anthony failure.

                     It is important to note that we have reported in prior MLRs that
                     high concentrations in CRE loans were a significant factor in the
                     failure of other banks. For example, in our May 2010 MLR report
                     on Union Bank, 8 we recommended that OCC work with its
                     regulatory partners to determine whether to propose legislation
                     and/or change regulatory guidance to establish limits or other
                     controls for concentrations that pose an unacceptable safety and
                     soundness risk and determine an appropriate range of examiner
                     responses to high-risk concentrations. The failure of FNB Anthony
                     was another case in which a bank failed primarily because it had a
                     high concentration in CRE loans.

                                                  * * * * *

                     We appreciate the courtesies and cooperation provided to our staff
                     during the audit. If you wish to discuss the report, you may
                     contact me at (202) 927-5776. Major contributors to this report
                     are listed in appendix 4.



                     /s/
                     Susan Barron
                     Audit Director




8
 Safety and Soundness: Material Loss Review of Union Bank, National Association, OIG-CA-10-009
(May 11, 2010).

                     Material Loss Review of First National Bank of Anthony (OIG-11-105)    Page 9
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of First National Bank of
                        Anthony (FNB Anthony), of Anthony, Kansas, in response to our
                        mandate under section 38(k) of the Federal Deposit Insurance Act. 9
                        This section provides that if the Deposit Insurance Fund incurs a
                        material loss with respect to an insured depository institution, the
                        inspector general for the appropriate federal banking agency is to
                        prepare a report to the agency that

                        •   ascertains why the institution’s problems resulted in a material
                            loss to the insurance fund;
                        •   reviews the agency’s supervision of the institution, including its
                            implementation of the prompt corrective action (PCA) provisions
                            of section 38; and
                        •   makes recommendations for preventing any such loss in the
                            future.

                        At the time of FNB Anthony’s failure, section 38(k) defined a loss
                        as material if it exceeded the greater of $25 million or 2 percent of
                        the institution’s total assets. The law also requires the inspector
                        general to complete the report within 6 months after it becomes
                        apparent that a material loss has been incurred.

                        We initiated a material loss review of FNB Anthony based on the
                        loss estimate to the Deposit Insurance Fund by the Federal Deposit
                        Insurance Corporation (FDIC), which was $30.5 million when the
                        Office of the Comptroller of the Currency (OCC) closed the bank on
                        June 19, 2009. As of June 30, 2011, FDIC’s loss estimate was
                        $38.3 million.

                        Our objectives were to determine the causes of FNB Anthony’s
                        failure; assess OCC’s supervision of FNB Anthony, including
                        implementation of the PCA provisions of section 38; and make
                        recommendations for preventing such a loss in the future. To
                        accomplish our objectives, we conducted fieldwork at OCC’s
                        headquarters in Washington, DC, its field office in Wichita, Kansas,
                        and FNB Anthony’s former branch office located in Wichita,
                        Kansas. We also conducted interviews with OCC and FDIC
                        officials. We conducted our fieldwork from October 2009 through
                        December 2009.


9
    12 U.S.C. § 1831o(k).

                        Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page 10
Appendix 1
Objectives, Scope, and Methodology




To assess the adequacy of OCC’s supervision of FNB Anthony, we
determined (1) when OCC first identified FNB Anthony’s safety and
soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OCC took to get the bank to correct the
problems. We also assessed whether OCC (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

•   We determined that the time period relating to OCC’s
    supervision of FNB Anthony covered by our audit would be from
    May 2004 through FNB Anthony’s failure on June 19, 2009.
    This period included four full scope safety and soundness
    examinations.

•   We reviewed OCC’s supervisory files and records for FNB
    Anthony from 2004 through 2008. We analyzed examination
    reports, supporting workpapers, and related supervisory
    correspondence. We performed these analyses to gain an
    understanding of the problems identified, the approach and
    methodology OCC used to assess the bank’s condition, and the
    regulatory action OCC used to compel bank management to
    address deficient conditions. We did not conduct an
    independent or separate detailed review of the external auditor’s
    work or associated workpapers other than those incidentally
    available through the supervisory files.

•   We interviewed and discussed various aspects of FNB
    Anthony’s supervision with OCC officials and examiners to
    obtain their perspectives on the bank’s condition and the scope
    of the examinations.

•   We interviewed FDIC officials responsible for monitoring FNB
    Anthony for federal deposit insurance purposes.

•   We interviewed an official with FDIC’s Division of Resolutions
    and Receiverships who was involved in the supervision and
    closing of FNB Anthony.




Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page 11
                        Appendix 1
                        Objectives, Scope, and Methodology




                        •   We assessed OCC’s actions based on its internal guidance and
                            requirements of the Federal Deposit Insurance Act. 10

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




10
     12 U.S.C. § 1811 et seq.

                        Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page 12
Appendix 2
Background




History of FNB Anthony Bank

First National Bank of Anthony (FNB Anthony), located in Anthony,
Kansas, was chartered on September 21, 1885. FNB Anthony was
a community bank with trust powers. In addition to its main office,
FNB Anthony had (1) five branches, which were located in Harper,
Mayfield, Olathe, Overland Park, and Wichita, Kansas; and (2) one
loan production office, which was located in Wichita, Kansas. First
SCK Financial Company of Anthony Kansas, a one-bank holding
company, wholly owned FNB Anthony. Ninety-two (92) percent of
First SCK Financial Company’s stock was held by two individuals.

Historically, the economy of Anthony, Kansas, and the surrounding
area was heavily dependent on the agricultural sector. In an effort
to improve its business, FNB Anthony transitioned from agricultural
lending in its local market to commercial real estate lending in
larger markets. FNB Anthony’s commercial real estate portfolio
consisted of residential construction and development lending.

OCC Assessments Paid by FNB Anthony

OCC funds its operations in part through semiannual assessments
on national banks. OCC publishes annual fee schedules, which
include general assessments to be paid by each institution based
on the institution’s total assets. If the institution is a problem bank
(i.e., it has a CAMELS composite rating of 3, 4, or 5), OCC also
applies a surcharge to the institution’s assessment to cover
additional supervisory costs. These surcharges are calculated by
multiplying the sum of the general assessment by 50 percent for
3-rated institutions or by 100 percent for 4- and 5-rated
institutions. Table 2 shows the assessments that FNB Anthony
paid to OCC from 2004 through 2008 and their share of the total
assessments paid by OCC-regulated banks.




Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page 13
Appendix 2
Background




Table 2:   Assessments Paid by FNB Anthony to OCC, 2004–2008

                                                                  Percent of Total
Billing Period              Exam Rating        Amount Paid             Collections
1/1/2004–6/30/2004          2                      $21,713               0.009%
7/1/2004–12/31/2004         2                       23,031               0.008%
1/1/2005–6/30/2005          2                       25,069               0.009%
7/1/2005–12/31/2005         2                       27,535               0.009%
1/1/2006–6/30/2006          2                       28,250               0.009%
7/1/2006–12/31/2006         2                       29,013               0.009%
1/1/2007-6/30/2007          2                       30,271               0.009%
7/1/2007–12/31/2007         4                       30,619               0.009%
1/1/2008–6/30/2008          4                       31,848               0.009%
7/1/2008-12/31/2008         4                       61,850               0.161%
Source: OCC $MART database.


Number of OCC Staff Hours Spent Examining FNB
Anthony

Table 3 shows the number of OCC staff hours spent examining
FNB Anthony from 2004 to 2008.

Table 3: Number of OCC Hours Spent on Examining
         FNB Anthony, 2004–2008

    Examination                    Number of
     Start Date             Examination Hours
5/11/2004                                362
12/5/2005                                450
12/21/2006                               475
6/16/2008                                613
Total                                  1,900
Source: OCC Examiner View.
Note: Examination hours are totaled for safety and soundness examinations,
information technology examinations, and compliance examinations. They do not
include time spent performing off-site monitoring.




Material Loss Review of First National Bank of Anthony (OIG-11-105)          Page 14
Appendix 3
Management Response




Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page 15
Appendix 4
Major Contributors to This Report




Lisa DeAngelis, Audit Manager
Fawntrella Thompson, Auditor-in-Charge
Angelo Arpaia, Auditor
Alicia Bruce, Auditor
Kevin Guishard, Auditor
Robert Hong, Auditor
Dana Duvall, Referencer




Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page 16
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

United States House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Government Accountability Office

    Comptroller General of the United States




Material Loss Review of First National Bank of Anthony (OIG-11-105)   Page 17
